No.

IN THE

SUPREME COURT OF THE UNITED STATES

JAMES DALE HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTIONS PRESENTED FOR REVIEW
1.

Whether a criminal defendant establishes

an “actual” conflict of interest that adversely affects
counsel’s representation when the attorney engages in
“joint and dual” representation – i.e., simultaneously
representing both the defendant and a key prosecution
witness during a trial.
2.

Whether the “presumed prejudice” conflict

of interest standard applies when the prosecutor
(rather than defense counsel) puts the trial judge on
notice at the beginning of a trial of defense counsel’s
conflict of interest – a conflict which is described by the
prosecutor as “not waiveable” – and the judge
thereafter fails to inquire into the nature and scope of
the conflict.

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTIONS PRESENTED FOR REVIEW . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . . v

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISION
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . . . 2

H.

REASONS FOR GRANTING THE WRIT . . 11
1

There is a split of authority as to
whether an attorney’s “joint and
dual” representation amounts to
an “actual” conflict of interest that
adversely affects counsel’s
representation. . . . . . . . . . . . . . . . . . . 11

iv
2.
I.

The questions presented are
important . . . . . . . . . . . . . . . . . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 35

v
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Cates v. Superintendent,
981 F.2d 949 (7th Cir.1992) . . . . . . . . . . . . . 24
Cuyler v. Sullivan, 446 U.S. 335 (1980) . . . . . . 15-18
Hoffman v. Leeke,
903 F.2d 280 (4th Cir. 1990) . . . . . . . . . . . . . 25
Holcombe v. State,
312 So. 3d 132 (Fla. 5th DCA 2020) . . . . . . . . 1
Holloway v. Arkansas,
435 U.S. 475 (1978) . . . . . . . . . . . . . . . . passim
Jalowiec v. Bradshaw,
657 F.3d 293 (6th Cir. 2011) . . . . . . . . . . . . . 20
McFarland v. Yukins,
356 F.3d 688 (6th Cir. 2004) . . . . . . . . . . 19-20
Mickens v. Taylor,
535 U.S. 162 (2002) . . . . . . . . . . . . . . . . passim
People v. Solomon,
980 N.E.2d 505 (N.Y. 2012) . . . . . 21-23, 27-28
Porter v. Singletary,
14 F.3d 554 (11th Cir. 1994) . . . . . . . . . . 26-27

vi
Ross v. Heyne, 638 F.2d 979 (7th Cir. 1980) . . . . . . 24
Ruffin v. Kemp,
767 F.2d 748 (11th Cir. 1985) . . . . . . . . . 24-25
Selsor v. Kaiser, 81 F.3d 1492 (10th Cir. 1996) . . . 18
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . 13, 19
Thomas v. State,
551 S.E.2d 254 (S.C. 2001) . . . . . . . 24, 26, 33
United States v. Alvarez,
137 F.3d 1249 (10th Cir. 1998) . . . . . 12-13, 18
United States v. Cronic, 466 U.S. 648 (1984) . . . . . 13
United States v. Williamson,
859 F.3d 843 (10th Cir. 2017) . . . . . . . . . 17-19
Wood v. Georgia, 450 U.S. 261 (1981) . . . . . . . . . . . 11

b.

Statutes

28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

c.

Other

Fed. R. Crim. P. 44(c) . . . . . . . . . . . . . . . . . . . . . . . . 20

vii
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . passim
Wayne R. LaFave, et. al, 3 Crim. Proc.
(4th ed. 2016 update) . . . . . . . . . . . . . . 12, 14

1
The Petitioner, JAMES DALE HOLCOMBE,
requests that the Court issue its writ of certiorari to
review the judgment of the Florida Fifth District Court
of Appeal entered in this case on September 14, 2020
(A-5)1 (review denied by the Florida Supreme Court on
February 1, 2021 (A-3)).

D. CITATION TO OPINION BELOW
Holcombe v. State, 312 So. 3d 132 (Fla. 5th DCA
2020).

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1257 to review the final judgment of the
Florida Fifth District Court of Appeal.

References to the appendix to this petition will be
made by the designation “A” followed by the appropriate
page number.
1

2
F.
CONSTITUTIONAL
INVOLVED

PROVISION

The Sixth Amendment provides that a criminal
defendant shall have the right to “the Assistance of
Counsel for his defence.”

G. STATEMENT OF THE CASE AND
STATEMENT OF THE FACTS
The Petitioner was convicted – following a jury
trial in August of 2018 – of RICO and conspiracy to
commit RICO. The record establishes that after the
Petitioner was charged in this case, the Petitioner’s
attorneys agreed to also represent two codefendants:
William Hooper and Matthew Angell.

During a

pretrial hearing on January 8, 2018, the trial court
addressed all three defendants and questioned them
about the potential conflict of interest in having the
same attorney/law firm

represent all of them.

3
However, during the inquiry, the trial court never
advised the defendants of their right to retain/obtain
separate attorneys.

During a subsequent pretrial

hearing on May 17, 2018, the trial court discussed with
the defendants the possibility of resolving the case
pursuant to an open plea. Then, during a pretrial
hearing on July 26, 2018, it was announced that
codefendants Hooper and Angell would not be
proceeding to trial because they had entered pleas and
the following was stated on the record:
THE COURT: All right. Now, the
other two codefendants pled, didn’t they?
MR. DELGADO [defense counsel]:
Yes.
THE COURT: Are they testifying?
MS. SAMMON [the prosecutor]: I
haven’t decided.
THE COURT: But you’ve worked
that out with him?

4
MR. DELGADO:

They took the

depos.
MS. SAMMON: They did. Yes.
THE COURT: Oh, good. Good.
All right. Good deal. . . .
(A-30-31).
At the beginning of the August 2018 trial, the
following occurred:
THE COURT: All right. Good
deal. And then what –
Okay. So I think the State is still
concerned about any potential possible
conflict –
MS. SAMMON: Yes, Your Honor.
THE COURT: – with the other two
fellas?
MS. SAMMON: Yes, Your Honor.
Two of the co-defendants also
represented by Mr. Delgado and his firm
in this case are testifying on behalf of the
State.
And so the issue is Mr. Delgado, or
his co-counsel, cross examining their
current client in representation of their

5
current clients on trial in this case.
THE COURT: But how are – and
is that Hooper and Angell?
MS. SAMMON: Matthew Angell,
yes, Your Honor.
THE COURT: How are they – are
they – is it to their detriment? I mean,
they’ve already entered a plea. They just
haven’t been sentenced yet.
MS. SAMMON: Yes, Your Honor.
Your Honor put off sentencing until after
both defendants testified at trial and
basically determine whether or not they
were cooperative and testified truthfully
for the State.
Therefore, it’s in their best interest
to cooperate and testify truthfully in order
to benefit from the plea discussions that
the defendants and their counsel had with
Your Honor during the time of their plea.
Their testimony will provide
evidence for the State against the
defendants. And, therefore, in order to
represent his clients, Dale Holcombe and
James Holcombe, Mr. Delgado will have
to, in the State’s position, cross-examine
his current clients that he’s representing
which would be Matthew Angell and

6
William Hooper.
....
. . . The circumstances have now
changed. Two of the defendants have
entered a plea agreement – or has
entered their pleas open pleas to the
bench and are now witnesses for the
State.
Circumstances now are much
different than they were [when the trial
court conducted the previous inquiry with
the defendants regarding the conflict of
interest]. There is a greater conflict that
exists, one that the State’s position is not
waiveable.
THE COURT: Well, I disagree. I
think it can be waived. I think ultimately
defendants can – as long as they’re
adequately advised, which I think they
were – all four were adequately advised,
they were told exactly what would
happen, and they waived it.
And I do remember looking at the
waiver. And I remember having this
issue when I was a private attorney – not
with four of them, but two – where, you
know, theoretically they could be
testifying against each other. They both
wanted to waive it, and we put it in
writing. And we made it and had the

7
judge review it.
So I found that the waiver was
valid.
It was entered into freely,
voluntarily, knowingly, intelligently, with
full advice of the consequences.
....
Okay. So I find there’s no conflict.
I accepted the waiver previously
somewhere along the line. I discussed it
the other day with Hooper and Angell
when they were here in front of me for
sentencing, and I continued the
sentencing, so I’m ready to go.
(A-32-36). After making this ruling, the lead defense
attorney suggested that he could withdraw from
representing Messrs. Hooper and Angell, but the trial
court denied the request:
MR. DELGADO: And, Judge and
what I can do is if – and I don’t know Mr.
– we’ll get to the two witnesses in
question today. I mean, I can withdraw
from their representation and have a
public defender or somebody appointed.
I think it would have to be conflict
counsel.

8
THE COURT: I’m not going to do
that.
(A-37). Ultimately, Messrs. Hooper and Angell both
testified at trial as witnesses for the prosecution, and
Mr. Delgado cross-examined both witnesses (i.e., at the
time that Mr. Delgado cross-examined these two State
witnesses, he was both counsel for the Petitioner and
counsel for the two witnesses). (A-38-43).
On direct appeal, the Petitioner (represented by
new and conflict-free counsel) argued that his trial
attorneys had an “actual conflict of interest” at trial.
In its opinion, the Florida Fifth District Court of
Appeal confirmed the facts set forth above:
Ultimately, the State charged
Appellant with racketeering and
conspiracy to engage in a pattern of
racketeering. In contrast, Angell and
Hooper’s charges consisted of multiple
counts of dealing in stolen property.
Two attorneys from the same firm
were retained to represent Appellant,

9
Angell, and Hooper.
At a pretrial
hearing, the trial court addressed the
possible conflict of interest stemming
from the joint representation of these
individuals. The trial court explained to
them some of the risks associated with
joint representation but never advised
them of the right to obtain separate
attorneys.
Following this hearing, Angell and
Hooper entered open guilty pleas to the
charges against them. The trial court
declined to sentence them until after
Appellant’s trial.
Prior to the selection of the jury for
Appellant’s trial, the prosecutor raised
the conflict issue in light of Angell and
Hooper’s pleas. The prosecutor asserted
that, in her view, the conflict was now
non-waivable. Disagreeing with the
prosecutor’s position, the trial court
concluded that any conflict had already
been properly waived.
During the trial, the State called
numerous witnesses – including Angell
and Hooper – who testified about their
interactions with the customers,
Appellant’s role in the business, how
often Appellant was present at the
business, and the policies enacted by
Appellant. Like other State witnesses,
Angell and Hooper were cross-examined
by defense counsel. Ultimately, the jury

10
found Appellant guilty as charged on both
counts, and the trial court sentenced him
to a total of ten years in prison.
(A-7-9) (emphasis added).

However, the appellate

court rejected the Petitioner’s conflict of interest
a rg um ent ,

concluding

that

simultaneous

representation of a defendant and a State’s witness
“do[es] not, without more, constitute an actual conflict
for Sixth Amendment purposes.”
omitted).

(A-12) (citation

11
H. REASONS FOR GRANTING THE WRIT
1.
There is a split of authority as to
whether an attorney’s “joint and dual”
representation amounts to an “actual” conflict of
interest that adversely affects counsel’s
representation.
a.
This Court’s conflict of interest
jurisprudence.
The Sixth Amendment’s guarantee of the right
to counsel includes the “right to representation that is
free from conflicts of interest.” Wood v. Georgia, 450
U.S. 261, 271 (1981).
division

of

loyalties

A conflict of interest is “a
that

affected

counsel’s

performance.” Mickens v. Taylor, 535 U.S. 162, 172 n.5
(2002).
A typical potential conflict can arise from joint
or multiple representation situations when more than
one codefendant is represented by the same attorney.
Multiple representation conflicts may arise at any

12
point in the criminal process, from the plea bargaining
stage to sentencing, even if the codefendants’ interests
initially appear to converge. See Wayne R. LaFave, et.
al, 3 Crim. Proc. § 11.9(a) (4th ed. 2016 update). Other
types of conflicts can arise from an attorney’s
relationship with other clients, victims, or the
prosecution. And although all of the above situations
give rise to a “potential” conflict of interest, that
potential will only be converted to an “actual” conflict
of interest if, over the course of litigation, the
defendant’s interests actually clash with his attorney’s
interests. See id. This Court has concluded that an
actual conflict of interest therefore means a “conflict
that affected counsel’s performance – as opposed to a
mere theoretical division of loyalties.” Mickens, 535
U.S. at 171. In other words, an actual conflict exists
when “counsel [is] forced to make choices advancing

13
other interests to the detriment of his client.” United
States v. Alvarez, 137 F.3d 1249, 1252 (10th Cir. 1998).
An actual conflict can support an ineffective
assistance of counsel claim where the conflict
prejudiced the defendant’s representation.

See

Strickland v. Washington, 466 U.S. 668, 687-688, 694
(1984).

Generally, a defendant must demonstrate

prejudice flowing from the conflict, but in some
circumstances, a court will presume prejudice when the
conflict amounts to the complete denial of counsel. See
id. at 692; United States v. Cronic, 466 U.S. 648, 658660 (1984).
In a series of cases beginning with Holloway v.
Arkansas, 435 U.S. 475 (1978), the Court has applied
the “presumed prejudice” rule for conflicts of interest in
multiple representation cases. In Holloway, the Court
established that whenever a trial court improperly

14
requires counsel to represent multiple codefendants
over counsel’s timely objection, reviewing courts will
apply an “automatic reversal” rule. Id. at 476-491.
The Court explained that while “joint representation
[ ] is not per se violative of constitutional guarantees of
effective assistance,” defendants are entitled to
representation free of a conflict of interest. Id. at 482.
Thus, a court has a “duty to inquire” into a potential
joint representation conflict of interest when defense
counsel informs the court of the alleged conflict prior to
trial, and “whenever a trial court improperly requires
joint representation over timely objection reversal is
automatic.” Id. at 488. See also LaFave, supra, at §
11.9(b).
Two years later, however, the Court declined to
apply the automatic reversal rule when the defendant
did not raise the conflict of interest prior to trial. In

15
Cuyler v. Sullivan, 446 U.S. 335 (1980), the Court
distinguished Holloway, noting that trial courts
necessarily rely on the judgment of defense counsel to
bring these matters to their attention, and that counsel
“is in the best position professionally and ethically to
determine when a conflict of interest exists or will
probably develop in the course of a trial.” Id. at 347.
Therefore, “[u]nless the trial court knows or reasonably
should know that a particular conflict exists, the court
need not initiate an inquiry.” Id. (quoting Holloway,
435 U.S. at 485).

Stated another way, absent a

credible indication of an actual conflict of interest
before trial, a trial court’s duty to inquire is limited –
prejudice will not be presumed, and the automatic
reversal rule will not apply.
Finally, in Mickens, the Court considered a
conflict of interest raised on habeas review. Mickens’s

16
lead defense counsel had been representing the
juvenile victim on unrelated charges when he was
allegedly murdered by Mickens. The juvenile court
judge who dismissed the pending charges against the
victim upon the victim’s death then appointed the
same defense counsel to represent Mickens on the
murder charge.

Counsel did not disclose his prior

representation, and Mickens only discovered the
alleged conflict when a clerk mistakenly produced the
victim’s file to Mickens’s federal habeas counsel. The
Court clarified its previous holdings that a violation of
Holloway’s duty to inquire required automatic reversal.
The Court also held that if the defendant did not raise
a timely objection to the conflict (as in Cuyler), the
defendant must prove that his attorney was laboring
under an actual conflict of interest for the court to
reverse his conviction. See id. at 170-174. The Court

17
rejected the defendant’s request to extend the
automatic reversal rule to cases in which the trial
court was unaware of a potential conflict, stating that
such a position “makes little policy sense” because a
judge’s awareness of a potential conflict neither makes
it more likely that counsel’s performance will be
affected by the conflict nor makes it more difficult for
a reviewing court to determine if counsel’s performance
was negatively impacted by the conflict. Id. at 172174. Nor does the “vague, unspecified possibility of
conflict” trigger a duty to inquire absent special
circumstances. Ultimately, the Court concluded that
“automatic reversal [was not] an appropriate means of
enforcing [Cuyler’s] mandate of inquiry.” Id. at 173.
As explained by the Tenth Circuit Court of
Appeals in United States v. Williamson, 859 F.3d 843,
853 (10th Cir. 2017), when read together, this Court’s

18
decisions in Holloway, Cuyler, and Mickens establish a
bifurcated standard for addressing conflict of interest
claims in the multiple representation context:
First, if the defendant objects to the
alleged conflict prior to trial, prejudice is
presumed if the trial court failed to
inquire into the nature and scope of the
conflict and required the defendant to
proceed with the same attorney. In such
instances, reversal is automatic. See
Holloway, 435 U.S. at 484; Selsor v.
Kaiser, 81 F.3d 1492, 1500, 1504, 1506
(10th Cir. 1996) (applying Holloway and
holding automatic reversal was
warranted because the district court did
not inquire into the timely objection to
the multiple representation).
But if the defendant does not object
to the alleged conflict at trial, he must
demonstrate on appeal that an actual
conflict adversely affected his
representation. Only if the defendant’s
demonstration is sufficient is prejudice
presumed. See Cuyler, 446 U.S. at 348349; see also Alvarez, 137 F.3d at 1251.
In this context, the defendant has the
burden to show specific facts to support
his allegation of an actual conflict
adverse to his interests.
If the
defendant’s demonstration is insufficient,

19
then traditional Strickland review will
apply: the defendant must establish his
counsel performed deficiently and that
performance affected the outcome of trial.
Strickland, 466 U.S. at 687-688, 694.
(One citation omitted).
b.
The Court should resolve the
following question for which the courts in this
country are split: whether a criminal defendant
establishes an “actual” conflict of interest that
adversely affects counsel’s representation when
the attorney engages in “joint and dual”
represen t at ion – i.e., simultaneously
representing both the defendant and a key
prosecution witness during a trial.
The courts of this country have issued conflicting
decisions

regarding

whether

“joint

and

dual”

representation2 – i.e., simultaneously representing both

While the terms used to describe a lawyer’s
representation of two or more clients under circumstances
alleged to give rise to a conflict of interest are often used
interchangeably by courts, the Sixth Circuit Court of
Appeals shed some light on the distinct meanings of the
terms in McFarland v. Yukins: “joint and dual
representation refer to simultaneous representation
occurring in the same proceeding, while multiple
representation refers to simultaneous representation in
2

20
the defendant and a key prosecution witness during a
trial3 – amounts to an “actual” conflict of interest that
adversely affects counsel’s representation.

The

Florida Fifth District Court of Appeal falls on one side
of the split. In its decision below, the state appellate
court held:
Appellant merely asserts that there was
an “actual conflict” because defense

separate proceedings.” 356 F.3d 688, 701 (6th Cir. 2004).
Cf. Jalowiec v. Bradshaw, 657 F.3d 293, 315 (6th Cir. 2011)
(defining successive representation as a situation “where
defense counsel has previously represented a codefendant
or trial witness,” while concurrent representation “occurs
where a single attorney simultaneously represents two or
more codefendants”).
The facts of the instant case are distinguishable
from Mickens, which involved prior representation – not
concurrent representation. See Mickens, 535 U.S. at 175
(“Thus, the Federal Rules of Criminal Procedure treat
concurrent representation and prior representation
differently, requiring a trial court to inquire into the
likelihood of conflict whenever jointly charged defendants
are represented by a single attorney (Rule 44(c)), but not
when counsel previously represented another defendant in
a substantially related matter, even where the trial court is
aware of the prior representation.”).
3

21
counsel represented Appellant as well as
Angell and Hooper during the trial. He
emphasizes that defense counsel
cross-examined Angell and Hooper, whom
counsel still represented. However, such
facts do not, without more, constitute an
actual conflict for Sixth Amendment
purposes.
(Emphasis added).
On the other side of the split are the decisions
from both state and federal courts holding that the
simultaneous representation of both a defendant and
a key prosecution witness during a trial amounts to an
“actual” conflict of interest. For example, in People v.
Solomon, 980 N.E.2d 505, 508-509 (N.Y. 2012), the
Court of Appeals of New York held:
There was an actual conflict of
interest between defendant and Kuebler
here. Kuebler testified that defendant
had confessed to raping his daughter. It
was very much in defendant’s interest
either to discredit that testimony or to
show that the confession had been
obtained by some unlawful or unfair

22
means; Kuebler’s interest was the
opposite. . . .
The People argue, and the
Appellate Division held, that reversal is
not necessary because defendant has not
shown that the conflict “affected the
conduct of the defense.” Nothing in the
record, the People say, proves that
counsel was less effective in
cross-examining Kuebler than she would
have been had Kuebler not been her
client. We assume that this is correct; it
seems from the transcript that the
cross-examination was competently
performed. Defendant now suggests a
number of lines of inquiry that counsel
might have pursued, but did not. Such
after-the-fact suggestions, however, can
probably be made about almost every
significant cross-examination in almost
every case.
But we have never held, and
decline now to hold, that the
simultaneous representation of clients
whose interests actually conflict can be
overlooked so long as it seems that the
lawyer did a good job. Our cases, and the
United States Supreme Court’s, make
clear that, where such an actual conflict
exists and is not waived, the defendant
has been deprived of the effective

23
assistance of counsel.
(Citations omitted).4

4

Other courts have reached a

In Solomon, the court stated:

Sometimes there will be no actual conflict
between the defendant and a prosecution
witness – for example, where the witness
testifies only about a trivial or
uncontroversial issue, or where the witness,
testifying reluctantly for the People, really
wants the defendant to be acquitted. More
typically, however, a prosecution witness’s
interest will actually conflict with the
defendant’s. In such cases, we have held
t hat t he s a m e a t t o r n e y c a n n o t
simultaneously represent both, unless the
conflict is validly waived.
Solomon, 980 N.E.2d at 508 (citations omitted). The
opinion below establishes that Messrs. Hooper and Angell
did not merely testify about “trivial or uncontroversial
issues”:
During the trial, the State called
numerous witnesses – including Angell and
Hooper – who testified about their
interactions with the customers, Appellant’s
role in the business, how often Appellant was
present at the business, and the policies
enacted by Appellant.
(A-9).

24
similar conclusion.

See e.g., Thomas v. State, 551

S.E.2d 254, 256 (S.C. 2001) (“In this case, an actual
conflict of interest arose when the solicitor offered a
plea bargain that would allow the charge against one
spouse to be dismissed if the other spouse would plead
guilty to the entire amount of the cocaine.”); Cates v.
Superintendent, 981 F.2d 949, 955 (7th Cir.1992)
(“[N]egotiating a plea agreement for one client with a
condition that he testify against another creates an
actual conflict of interest.”); Ross v. Heyne, 638 F.2d
979, 983 (7th Cir. 1980) (“A conflict of interest would
also exist where one attorney represents co-defendants
and one defendant agrees to provide evidence against
the other in return for an advantageous plea
bargain.”); Ruffin v. Kemp, 767 F.2d 748 (11th Cir.
1985) (holding that an attorney who had been
appointed

to

represent

codefendants

and

who

25
attempted to arrange for plea bargain whereby one of
them would be guilty and testify against the other
labored under actual conflict of interest); Hoffman v.
Leeke, 903 F.2d 280 (4th Cir. 1990) (holding that
defense counsel’s joint representation of defendant and
codefendant created an actual conflict of interest where
counsel advised codefendant to enter into plea bargain
which required codefendant to implicate defendant at
trial).
In the instant case, counsel’s representation of
both the Petitioner and Messrs. Hooper and Angell was
initially

only

a

“potential”

conflict

–

counsel

represented three equally-situated codefendants who
were facing trial. But counsel’s representation turned
into an “actual” conflict when Messrs. Hooper and
Angell entered into plea agreements to become
prosecution witnesses against the Petitioner at his

26
trial. Although the Petitioner had initially waived a
conflict of interest when he and Messrs. Hooper and
Angell were all similarly-situated codefendants, once
it became clear that an actual conflict existed due to
the plea agreements of Messrs. Hooper and Angell,
counsel

should

have

either

withdrawn

from

representing the Petitioner or acquired another waiver
covering this specific conflict. See, e.g., Thomas, 551
S.E.2d at 256 (“Although petitioner initially waived a
conflict of interest, once it became clear an actual
conflict existed due to the plea bargain, counsel should
have either withdrawn from representing one or both
of them or acquired another waiver covering this
specific conflict.”).

As explained by the Eleventh

Circuit Court of Appeals in Porter v. Singletary, 14
F.3d 554, 561 (11th Cir. 1994), “[a]n attorney who
cross-examines a former client inherently encounters

27
divided loyalties.” See also Holloway, 435 U.S. at 490
(“But in a case of joint representation of conflicting
interests the evil – it bears repeating – is in what the
advocate finds himself compelled to refrain from doing,
not only at trial but also as to possible pretrial plea
negotiations and in the sentencing process.”) (emphasis
in the original).
By granting the petition for writ of certiorari in
the instant case, the Court will have the opportunity to
resolve the split in authority cited above.5 The split of

As explained above, in Solomon, the Court of
Appeals of New York held:
5

But we have never held, and decline
now to hold, that the simultaneous
representation of clients whose interests
actually conflict can be overlooked so long as
it seems that the lawyer did a good job. Our
cases, and the United States Supreme
Court’s, make clear that, where such an
actual conflict exists and is not waived, the
defendant has been deprived of the effective

28
authority is clear and in present need of resolution
before the split widens even more.
2.
The
important.

questions

presented

are

As explained above, there is a split in authority
regarding the first question (i.e., whether a criminal
defendant establishes an “actual” conflict of interest

assistance of counsel.
Solomon, 980 N.E.2d at 509 (emphasis added). This
holding is clearly in conflict with the following language
from the opinion below:
Here, Appellant does not point to, nor
does the record reflect, any adverse
performance on the part of defense counsel.
Appellant merely asserts that there was an
“actual conflict” because defense counsel
represented Appellant as well as Angell and
Hooper during the trial. He emphasizes that
defense counsel cross-examined Angell and
Hooper, whom counsel still represented.
However, such facts do not, without more,
constitute an actual conflict for Sixth
Amendment purposes.
(A-12).

29
that adversely affects counsel’s representation when
the attorney engages in “joint and dual” representation
– i.e., simultaneously representing both the defendant
and a key prosecution witness during a trial). The
Petitioner prays the Court to exercise its discretion to
consider this important question. This is an issue that
has the potential to impact numerous criminal cases
nationwide.
The second question presented in this case is
also important:
Whether the “presumed prejudice”
conflict of interest standard applies when
the prosecutor (rather than defense
counsel) puts the trial judge on notice at
the beginning of a trial of defense
counsel’s conflict of interest – a conflict
which is described by the prosecutor as
“not waiveable” – and the judge
thereafter fails to inquire into the nature
and scope of the conflict.
This Court’s caselaw establishes that automatic

30
reversal is required under the Sixth Amendment only
when the trial court refuses to inquire into a conflict of
interest over defendant’s or counsel’s objection. See
Holloway, 435 U.S. at 484, 487. But in the instant
case, it was the prosecutor who objected and asked the
trial court to inquire into the conflict – a conflict that
the prosecutor described as “not waiveable” because it
had

changed

from

a

potential

conflict

(i.e.,

representation of the Petitioner and his similarlysituated codefendants) to an actual conflict (i.e.,
representation of the Petitioner and two of the
prosecution’s key witnesses at trial):
THE COURT: All right. Good
deal. And then what –
Okay. So I think the State is still
concerned about any potential possible
conflict –
MS. SAMMON [the prosecutor]:
Yes, Your Honor.

31
THE COURT: – with the other two
fellas?
MS. SAMMON: Yes, Your Honor.
Two of the co-defendants also
represented by Mr. Delgado and his firm
in this case are testifying on behalf of the
State.
And so the issue is Mr. Delgado, or
his co-counsel, cross examining their
current client in representation of their
current clients on trial in this case.
THE COURT: But how are – and
is that Hooper and Angell?
MS. SAMMON: Matthew Angell,
yes, Your Honor.
THE COURT: How are they – are
they – is it to their detriment? I mean,
they’ve already entered a plea. They just
haven’t been sentenced yet.
MS. SAMMON: Yes, Your Honor.
Your Honor put off sentencing until after
both defendants testified at trial and
basically determine whether or not they
were cooperative and testified truthfully
for the State.
Therefore, it’s in their best interest
to cooperate and testify truthfully in order
to benefit from the plea discussions that

32
the defendants and their counsel had with
Your Honor during the time of their plea.
Their testimony will provide
evidence for the State against the
defendants. And, therefore, in order to
represent his clients, Dale Holcombe and
James Holcombe, Mr. Delgado will have
to, in the State’s position, cross-examine
his current clients that he’s representing
which would be Matthew Angell and
William Hooper.
....
. . . The circumstances have now
changed. Two of the defendants have
entered a plea agreement – or has entered
their pleas open pleas to the bench and are
now witnesses for the State.
Circumstances now are much
different than they were. There is a
greater conflict that exists, one that the
State’s position is not waiveable.
(A-32-35) (emphasis added). Yet, despite being put on
notice of the conflict in this case, the trial court failed
to conduct a proper inquiry: (1) the trial court failed to
inquire into the nature and scope of the conflict – a
conflict which was different than the one previously

33
addressed by the trial court during the January 2018
pretrial hearing (i.e., a hearing that was conducted
before Messrs. Hooper and Angell became prosecution
witnesses)6 – and (2) the trial court failed to inform the
Petitioner of his right to proceed with conflict-free
counsel:
Okay. So I find there’s no conflict.
I accepted the waiver previously
somewhere along the line. I discussed it
the other day with Hooper and Angell
when they were here in front of me for
sentencing, and I continued the
sentencing, so I’m ready to go.
(A-36).
As stated above, although the trial court conducted
a pretrial inquiry with the Petitioner in January of 2018
(when the Petitioner and Messrs. Hooper and Angell were
all similarly-situated codefendants), a new inquiry was
required after Messrs. Hooper and Angell entered into plea
agreements with the State and agreed to become
prosecution witnesses against the Petitioner. See, e.g.,
Thomas, 551 S.E.2d at 256 (“Although petitioner initially
waived a conflict of interest, once it became clear an actual
conflict existed due to the plea bargain, counsel should have
either withdrawn from representing one or both of them or
acquired another waiver covering this specific conflict.”).
6

34
Pursuant to Holloway, if there is a credible
indication of an actual conflict of interest before trial,
a trial court has a duty to inquire. The Petitioner
submits that it is irrelevant as to whether it is defense
counsel, the defendant, or the prosecution who notifies
the trial court of the conflict – the question is simply
whether “the trial court knows or reasonably should
know that a particular conflict exists.” Holloway, 435
U.S. at 485.
By granting the petition for writ of certiorari in
the instant case, the Court will have the opportunity to
consider this important question.

35
I. CONCLUSION
The Petitioner requests the Court to grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

